APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Supreme Court of New
Jersey
(March 8, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Superior Court of New
Jersey, Appellate Division
(October 1, 2018) . . . . . . . . . . . . . . App. 2
Appendix C Order in the Superior Court of New
Jersey, Hudson County-Law Division
(August 4, 2017) . . . . . . . . . . . . . App. 12
Appendix D Order in the Superior Court of New
Jersey, Hudson County-Law Division
(July 7, 2017) . . . . . . . . . . . . . . . App. 14
Appendix E Order in the Superior Court of New
Jersey, Hudson County-Law Division
(May 12, 2017) . . . . . . . . . . . . . . App. 16

App. 1

APPENDIX A
SUPREME COURT OF NEW JERSEY
C-636 September Term 2018
081973
[Filed March 8, 2019]
_________________________________
Cora Kerton,
)
Plaintiff-Petitioner,
)
)
v.
)
)
Society Hill at Droyers Point
)
Condominium Association, and
)
Landscape Maintenance Services, )
Defendants-Respondents.
)
________________________________ )
ORDER
A petition for certification of the judgment in A005428-16 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS, the Honorable Jaynee LaVecchia,
Presiding Justice, at Trenton, this 5th day of March,
2019.
/s/
CLERK OF THE SUPREME COURT

App. 2

APPENDIX B
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-5428-16T3
[Filed October 1, 2018]
__________________________________________
CORA KERTON,
)
Plaintiff-Appellant,
)
)
v.
)
)
SOCIETY HILL AT DROYERS POINT
)
CONDOMINIUM ASSOCIATION, and
)
LANDSCAPE MAINTENANCE SERVICES, )
Defendants-Respondents.
)
_________________________________________ )
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not “constitute precedent
or be binding upon any court.” Although it is
posted on the internet, this opinion is binding
only on the parties in the case and its use in other
cases is limited. R. 1:36-3.
Argued September 13, 2018 - Decided October 1,
2018
Before Judges Fuentes, Accurso and Moynihan.

App. 3
On appeal from Superior Court of New Jersey,
Law Division, Hudson County, Docket No. L4425-15.
Luretha M. Stribling argued the cause for
appellant.
Michael J. Jubanyik argued the cause for
respondents (Reilly, Janiczek, McDevitt,
Henrich & Cholden, PC; attorneys; Michael J.
Jubanyik and Michelle B. Cappuccio, on the
brief).
PER CURIAM
Plaintiff Cora Kerton appeals from a summary
judgment dismissing her premises liability complaint
against defendants Society Hill at Droyers Point
Condominium Association and Landscape Maintenance
Services. We affirm.
Viewed in the light most favorable to plaintiff, the
essential facts are as follows. Plaintiff, a Jersey City
police officer, was dispatched to a reported medical
emergency at a home in the Droyers Point development
on an early March afternoon in 2015. It was snowing,
as it had been all day. An ambulance and another
police car also responded. After helping to get the
victim into the ambulance, plaintiff walked back to her
patrol car ahead of the other officers. She slipped on
the snow covered road and landed hard on her back,
hitting her head on the street and suffering serious
injuries.
Plaintiff filed suit, alleging her injuries resulted
from defendants’ negligence in removing the snow and

App. 4
ice from the streets of the Droyers Point development.
Landscape Maintenance Services served as the
condominium association’s snow removal contractor at
the time of the accident. The contract between
defendants required snow removal to “commence when
accumulations reach[] a depth of one (1) inch or more”
and obligated Landscape Maintenance Services to
make “every effort . . . to complete snow removal
operations within twenty-four (24) hours.” An attached
schedule, which the parties agree controls, with the
exception of the plowing trigger, which they
acknowledge is irrelevant because whether one inch or
two inches the trigger was met hours before the
accident, provides in pertinent part:
A. Plowing:
1. Plowing of all paved black top roads shall
begin automatically in accordance with this
contract for snowfalls of two (2) inches or more.
Initial pass-through will be made to reasonably
clear roadways to help enable cars to
leave/arrive the community except in extreme
conditions.
2. After snowfall ceases, parking stalls,
parking lots, mailboxes, fire hydrants, catch
basins and dumpster areas will be cleared. . . .
....
B. Sidewalks:
1. Sidewalks will be cleared after snowfall
ceases and be completed no later than 8 hours
thereafter except in extreme conditions of heavy
accumulations or ice for two (2) inches or more.

App. 5
2. Full width of sidewalks to be cleared of
snow except in extreme conditions of heavy
accumulations or ice.
3. Access from parking stalls to sidewalks
must be provided. If snow is pushed up against
sides, path will be cut through.
The parties agree plaintiff fell shortly after 3 p.m.,
when about six inches of snow had already fallen, and
that close to another inch would fall before the snow
finally ended sometime in the evening. They disagree
over whether the street on which plaintiff fell, one of
twenty-five streets in the development, had been
plowed at the time of the accident. Employees of
Landscape Maintenance Services testified at deposition
the contractor had a plow crew on site conducting the
“initial pass-through” throughout the day. It presented
invoices and time records on the motion it claimed
corroborated the contractor’s efforts. Plaintiff and her
fellow officers testified the snow was over their boots
and they did not see any plows while they were there.
Plaintiff’s snow removal expert submitted a report
stating “[i]t appear[ed] to [him] that there was at least
one attempt to plow the roadways to allow for
emergency services access,” but the contractor “did not
have enough equipment to keep up with this moderate
winter storm event.” He opined that Landscape
Maintenance Services “violated the standards and
practices of snow and ice maintenance” by failing “to
have sufficient equipment at the site to be able to
achieve timely snow and ice removal for the entire
development.”

App. 6
After hearing argument on two different dates
necessitated by defendants’ failure to initially address
plaintiff’s expert report, the court granted summary
judgment dismissing the complaint. The court found
the testimony of the officers that there was snow and
ice in the road and they did not see plows while they
were in the development was not sufficient to put in
issue defendants’ proofs that a crew was on site and
plowing the roads on the day of the accident. Noting
plaintiff did not dispute that it was still snowing when
she fell, the court found Landscape Maintenance
Services “did what the contract said they were
supposed to do. They kept the streets open for
emergency vehicles.” The court found the association
had no duty to do more.
The court further determined plaintiff’s expert
report to be a net opinion, finding no standard by which
to measure his assertion that the contractor lacked
enough equipment to keep up with the storm and no
basis for his claim that Landscape Maintenance
Services “was remiss for failing to make sure that all
snow and potentially icy areas were addressed . . .
while it was still snowing.” The court denied plaintiff’s
motion for reconsideration.
On appeal, plaintiff contends the court erred in
ruling the report of her expert constituted a net
opinion, misinterpreted the contract and applied the
wrong standard. We disagree.
We review summary judgment using the same
standard that governs the trial court. Murray v.
Plainfield Rescue Squad, 210 N.J. 581, 584 (2012).
Thus we consider “whether the evidence presents a

App. 7
sufficient disagreement to require submission to a jury
or whether it is so one-sided that one party must
prevail as a matter of law.” Liberty Surplus Ins. Corp.,
Inc. v. Nowell Amoroso, P.A., 189 N.J. 436, 445-46
(2007) (quoting Brill v. Guardian Life Ins. Co. of Am.,
142 N.J. 520, 536 (1995)). In considering application of
the law to the facts adduced on the motion, our review
is de novo without deference to any interpretive
conclusions we believe mistaken. Nicholas v. Mynster,
213 N.J. 463, 478 (2013); Manalapan Realty, L.P. v.
Twp. Comm. of Manalapan, 140 N.J. 366, 378 (1995).
Applying those principles here, we agree with the trial
court that summary judgment was appropriate.
In order to establish defendants’ negligence,
plaintiff needed to show (1) they owed plaintiff a duty
of care; (2) they breached that duty; (3) actual and
proximate causation; and (4) damages. Fernandes v.
DAR Dev. Corp., 222 N.J. 390, 403-04 (2015). The
motion record makes clear that the road on which
plaintiff fell was a common element of the
condominium complex, thus making the association
responsible for its maintenance. See Qian v. Toll Bros.
Inc., 223 N.J. 124, 141 (2015). Because this is a
premises liability case and the parties agree as to
plaintiff’s status as an invitee, see Rowe v. Mazel
Thirty, LLC, 209 N.J. 35, 45-46 (2012), the association
owed plaintiff a duty to exercise reasonable care to
guard against “a dangerous condition on property
within the ambit of the common elements.” McDaid v.
Aztec W. Condo. Ass’n, 234 N.J. 130, 141-42 (2018);
Hopkins v. Fox & Lazo Realtors, 132 N.J. 426, 434
(1993). “A condominium association’s duty to keep the

App. 8
common elements reasonably safe is non-delegable.”
McDaid, 234 N.J. at 142 (citing N.J.A.C. 5:10-4.1(a)).
Yet plaintiff has not cited any case to us, and our
own research has not revealed one, imposing a duty on
a condominium association to remove snow from a
roadway in the midst of a snow storm in order to make
it safe for pedestrians. Roadways, of course, are
ordinarily intended for vehicular traffic, not
pedestrians. See Polzo v. Cty. of Essex, 209 N.J. 51, 7071 (2012). Our Supreme Court has made clear the law
imposes a duty on the association to keep its private
sidewalks, which are intended for pedestrians,
reasonably safe. Qian, 223 N.J. at 142. That obligation
may, as with the duty on a commercial property owner,
“require removal of snow or ice or reduction of the risk,
depending upon the circumstances.” Id. at 136 (quoting
Mirza v. Filmore Corp., 92 N.J. 390, 395-96 (1983)).
But we know of no case imposing such a duty, even on
a commercial landowner, while snow continues to fall.
Landscape Maintenance Services’ duty to plaintiff
springs from its contract with the association. See
Aronsohn v. Mandara, 98 N.J. 92, 105 (1984) (“Under
well-established principles a contractor has a duty to
persons, other than the one with whom the contractor
has made the contract, to carry out his undertaken
work in a careful and prudent manner, and he may be
responsible to third persons for their personal injuries
and property damages proximately caused by his
failure to exercise that care.”). Its duty to plaintiff is
defined “by the nature and scope of its contractual
undertaking.” McDaid, 234 N.J. at 142 (citation
omitted).

App. 9
Having reviewed the contract, we agree with the
motion judge that it requires Landscape Maintenance
Services to begin plowing all the “paved black top
roads” when the accumulation trigger is reached, but
also unambiguously limits its obligation, while snow
continued to fall, to an “[i]nitial pass-through . . . made
to reasonably clear roadways to help enable cars to
leave/arrive the community except in extreme
conditions.”1 The snow removal contractor’s obligation
under the contract to clear the sidewalks to make them
safe for pedestrians did not begin until the snow had
stopped, consistent with the association handbook in
the record advising unit owners that “[s]now removal
from sidewalks does not normally commence until the
snowfall has ended.”
Having correctly defined the duty at the time of
plaintiff’s accident as one limited to keeping the
roadways reasonably clear to permit cars to enter and
leave the development, the court was also correct that
the undisputed facts made apparent the duty was
discharged. The record makes clear that an ambulance
and two police cars were able to both enter and leave
the development with little if any difficulty while the
snow continued. More direct proof would be difficult to
come by.
We reject any notion that defendants had an
implied duty to make the roadways safe for pedestrians

1

Although the judge characterized Landscape Maintenance
Services’ obligation under the contract to keep “the streets open for
emergency vehicles,” instead of for cars generally, the
inconsequential error did not affect his otherwise sound analysis.

App. 10
who would be getting into and out of the cars coming
and going out of the development. The association
handbook and the snow removal contract both make
plain that sidewalks, mailboxes and parking stalls
would not begin to be cleared until the snow ended. The
court was correct to reject an implied obligation on the
part of defendants to make the roadway safe for
pedestrians, which was directly contrary to its express
obligation to clear the sidewalks only after the snow
ended. Pollack v. Quick Quality Rests., Inc., 452 N.J.
Super. 174, 187-88 (App. Div. 2017) (noting “[w]here
the terms of a contract are clear, we enforce the
contract as written and ascertain the intention of the
parties based upon the language.”).
Finally, we agree with the trial court’s conclusion
that plaintiff’s expert report was not sufficient to stave
off summary judgment to defendants. Although a court
faced with an evidentiary issue in the context of a
summary judgment motion ordinarily decides the
evidence question first, see Estate of Hanges v. Metro.
Prop. & Cas. Ins. Co., 202 N.J. 369, 384-85 (2010), here
it was necessary to define the duty owed to plaintiff in
order to determine whether the opinions offered by the
expert were relevant to the issues in dispute, even
assuming they were admissible.
Because the contract only required the contractor,
while it remained snowing, to keep the roadways
reasonably clear to permit cars to enter and leave the
development and the proofs make readily apparent it
did so, plaintiff’s expert’s opinion that the snow
removal contractor “was remiss for failing to make sure
that all snow and potentially icy areas were addressed

App. 11
. . . while it was still snowing” and lacked the
equipment to keep up with the storm was without
factual basis in the record. See Townsend v. Pierre, 221
N.J. 36, 55 (2015).
Plaintiff’s remaining arguments, to the extent we
have not addressed them, lack sufficient merit to
warrant discussion in a written opinion. See R. 2:113(e)(1)(E).
Affirmed.

App. 12

APPENDIX C
SUPERIOR COURT OF NEW JERSEY
HUDSON COUNTY-LAW DIVISION
DOCKET NUMBER: HUD-L-4425-15
Civil Action
[Filed August 4, 2017]
________________________________________________
CORA KERTON
)
Plaintiff,
)
)
v.
)
)
SOCIETY HILL AT DROYERS POINT
)
CONDOMINIUM ASSOCATION, LANDSCAPE
)
MAINTENANCE SERVICES, JOHN DOES
)
1-20, JANE DOES 1-20, ABC CORPORATION
)
A TO Z (fictitious names intended to identify
)
any and all parties whose identities are
)
unknown at this time)
)
Defendants.
)
_______________________________________________ )
ORDER
LURETHA M. STRIBLING, ESQ.
133 Westfield Avenue, Suite 4
Clark, New Jersey 07066
(732) 956-0010
Attorney for the Plaintiff
Attorney ID No. 0008452004

App. 13
THIS MATTER HAVING COME BEFORE THE
COURT on a Notice of Motion for Reconsideration of
the Summary Judgment Decisions entered on May 12,
2017 and July 7, 2017 which was filed by Counsel for
the Plaintiff, Luretha M. Stribling, Esq. with
Opposition to the Notice of Motion for Reconsideration
of the Summary Judgment Decisions entered on
May 12, 2017 and July 7, 2017 filed by Defendants,
Michelle Cappuccio, Esq. and Michael Jubanyik, Esq.
and the Court having had the opportunity to peruse all
submissions and having heard oral argument and for
good cause shown,
IT IS HEREBY ORDERED on this day 4th of August,
2017 that:
1. The Notice of Motion for Reconsideration of the
Summary Judgment Decisions entered on May 12,
2017 and July 7, 2017 is granted. DENIED
2. The decisions entered in the Motions for Summary
Judgment entered May 12, 2017 and July 7, 2017 are
hereby reversed. The above captioned case is reinstated
and will be scheduled for trial. DENIED
2. A copy of the signed Order shall be served on all
parties within seven (7) days of receipt of the signed
Order by Counsel for the Defendants.

T Opposed

/s/ Francis B. Shultz
HON. FRANCIS B. SHULTZ, J.S.C.

__ Unopposed
Motion Denied for the reasons placed on the Record
8/4/17

App. 14

APPENDIX D
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION
HUDSON COUNTY
DOCKET NO. HUD-L-4425-15
Civil Action
[Filed July 7, 2017]
________________________________________________
CORA KERTON,
)
PLAINTIFF,
)
)
vs.
)
)
SOCIETY HILL AT DROYERS POINT
)
CONDOMINIUM ASSOCIATION, LANDSCAPE )
MAINTENANCE SERVICES, INC., JOHN DOES )
1-20, JANE DOES 1-20, ABC CORPORATION
)
A TO Z (FICTITIOUS NAMES INTENDED
)
TO IDENTIFY ANY AND ALL PARTIES
)
WHOSE IDENTITIES ARE UNKNOWN
)
AT THIS TIME),
)
DEFENDANTS.
)
_______________________________________________ )
REILLY, JANICZEK & MCDEVITT, P.C.
BY: MICHAEL J. JUBANYIK, ESQUIRE
IDENTIFICATION #028531988
MICHELLE CAPPUCCIO, ESQUIRE
IDENTIFICATION #071112013
2500 MCCLELLAN BOULEVARD, SUITE 240
MERCHANTVILLE, NEW JERSEY 08109

App. 15
(856) 317-7180
OUR FILE # 128-1174
ATTORNEY FOR DEFENDANTS
LANDSCAPE MAINTENANCE
SERVICES, INC. AND SOCIETY
HILL AT DROYERS POINT
CONDOMINIUM ASSOCIATION
ORDER
THIS MATTER having been brought before the
Court on Motion of Michelle Cappuccio, Esquire, of the
law firm of Reilly, Janiczek, McDevitt, Henrich &
Cholden, P.C., attorneys for Landscape Maintenance
Services, Inc. and Society Hill at Droyers Point
Condominium Association the Court having considered
same; IT IS, on this 7th day of July, 2017;
ORDERED and DECREED that Defendants,
Landscape Maintenance Services, Inc. and Society Hill
at Droyers Point Condominium Association’s, Motion
for Summary Judgment is hereby GRANTED and
Plaintiff’s Complaint and all Crossclaims are hereby
dismissed with prejudice; it is further
ORDERED AND DECREED that a true copy of
this Order be served on all counsel within 7 days of
the date hereof.
/s/ Francis B. Schultz
FRANCIS B. SCHULTZ, J.S.C.
For the reasons placed on the record 7/7/17 & 5/12/17

App. 16

APPENDIX E
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION
HUDSON COUNTY
DOCKET NO. HUD-L-4425-15
Civil Action
[Filed May 12, 2017]
________________________________________________
CORA KERTON,
)
PLAINTIFF,
)
)
vs.
)
)
SOCIETY HILL AT DROYERS POINT
)
CONDOMINIUM ASSOCIATION, LANDSCAPE )
MAINTENANCE SERVICES, INC., JOHN DOES )
1-20, JANE DOES 1-20, ABC CORPORATION
)
A TO Z (FICTITIOUS NAMES INTENDED
)
TO IDENTIFY ANY AND ALL PARTIES
)
WHOSE IDENTITIES ARE UNKNOWN
)
AT THIS TIME),
)
DEFENDANTS.
)
_______________________________________________ )
REILLY, JANICZEK & MCDEVITT, P.C.
BY: MICHAEL J. JUBANYIK, ESQUIRE
IDENTIFICATION #028531988
MICHELLE CAPPUCCIO, ESQUIRE
IDENTIFICATION #071112013
2500 MCCLELLAN BOULEVARD, SUITE 240
MERCHANTVILLE, NEW JERSEY 08109

App. 17
(856) 317-7180
OUR FILE # 128-1174
ATTORNEY FOR DEFENDANTS
LANDSCAPE MAINTENANCE
SERVICES, INC. AND SOCIETY
HILL AT DROYERS POINT
CONDOMINIUM ASSOCIATION
ORDER
THIS MATTER having been brought before the
Court on Motion of Michelle Cappuccio, Esquire, of the
law firm of Reilly, Janiczek, McDevitt, Henrich &
Cholden, P.C., attorneys for Landscape Maintenance
Services, Inc. and Society Hill at Droyers Point
Condominium Association the Court having considered
same;
IT IS, on this 12th day of May, 2017;
ORDERED and DECREED that Defendants,
Landscape Maintenance Services, Inc. and Society Hill
at Droyers Point Condominium Association’s, Motion
for Summary Judgment is hereby GRANTED and
Plaintiff’s Complaint and all Crossclaims are hereby
dismissed with prejudice; it is further
ORDERED AND DECREED that a true copy of
this Order be served on all counsel with ___ days of the
date hereof.
This motion is Denied without prejudice. But for the
Plaintiff’s Expert report (which was not ruled upon) the
motion would have been granted.

App. 18
/s/ Francis B. Schultz
FRANCIS B. SCHULTZ, J.S.C.

